February 25, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Oversight Reviews – North Metro Processing and Distribution
         Center, SmartPay Purchase Card Program – Duluth, GA
         (Report Number FF-MA-11-024)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) Group’s performance and conclusions at the North Metro
Processing and Distribution Center (P&DC), SmartPay® Purchase Card Program,
Duluth, GA (Project Number 11BR007FF001), performed January 12 and13, 2011. The
North Metro P&DC, SmartPay® Purchase Card Program is in the Atlanta District of the
Capital Metro Area. At the conclusion of FY 2011, we will summarize the results for all
reviews in reports to Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission (PRC), which monitors and manages the Postal Service’s
compliance with SOX. The Postal Service established the FTC to conduct tests of key
financial reporting controls.

We conducted this oversight review in support of the independent public accountant’s
(IPA) reliance on Postal Service management’s testing, and overall audit opinions on
the Postal Service’s financial statements and internal controls over financial reporting.
The IPA relies on the Postal Service’s internal control testing to support the overall audit
opinions.

The overall objective of our review was to evaluate whether FTC analysts properly
conducted and documented their examination of SOX financial reporting controls.
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –                          FF-MA-11-024
North Metro P&DC, SmartPay Purchase Card Program – Duluth, GA


To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from January through February
2011 in accordance with the Quality Standards for Inspections.1

Conclusion

Based on our review of FTC’s work, FTC analysts properly conducted and documented
their examination of key SOX financial reporting controls See Appendix A for the results
of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all its
FTC oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters management. Management agreed not to respond to the interim
reports but will have the opportunity to formally respond to the draft summary report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lavetta Smith, acting manager,
at 404-507-8313, or me at 404-507-8317.


       E-Signed by William Rickett
    VERIFY authenticity with ApproveIt




William F. Rickett
Acting Director, Field Financial – Central

Attachments

cc:       Douglas G. Germer
          Corporate Audit and Response Management




1
  These standards were last issued by the President’s Council on Integrity and Efficiency (PCIE) and the Executive
Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978 as
amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.



                                                        2
                                             Restricted Information
 Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –                  FF-MA-11-024
 North Metro P&DC, SmartPay Purchase Card Program – Duluth, GA




                                APPENDIX A: REVIEW RESULTS

        Site Name                                                  North Metro P&DC
        Finance Number-Unit ID                                     1235690295
        Location Type                                              SmartPay
        Scope Period Under Review                                  September 18-November 18, 2010
        FTC Review Program Version and Date                        SmartPay Topic 27000 1/3/2011
        FTC Team                                                    Central




                                                                    Did FTC                Did the OIG
                                        Did the OIG                adequately                  agree
                             Did FTC        have        Did FTC   document its              with FTC’s
                               have     exceptions/ perform the       work                 exceptions/
   FTC                     exceptions/ findings that     step in   performed             findings (or no
 Review                    findings in    FTC did accordance to      and the               exceptions/
  Step #   FTC Review Step this step?       not?     its program?   results?                findings)?
/Control #   Description     (Yes/No)     (Yes/No)      (Yes/No)    (Yes/No)                 (Yes/No)
27000/ FTC Step                   Yes            No            Yes            Yes             Yes
225CA17 #27000 - USPS
        Purchase Card,
        SmartPay®
        Topic 27000




                                                     3
                                          Restricted Information
